No. 20-202

 

 

In THE
Supreme Court of the United States

ROBERT MASSIE,

Petitioner,
v.

BASILEA MENA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,493 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 12, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
